No. 20-5774

In the

Supreme Court of the United States
ARCHIE MANZANARES, Petitioner
v.

UNITED STATES OF AMERICA, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

Certificate of Service

I, Margaret A. Katze, hereby certify that on January 19, 2021, a copy
of the petitioner’s reply brief were mailed postage prepaid, to the

Solicitor General of the United States, Department of Justice, Room
5614, 950 Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001,
counsel for the Respondent.
Respectfully submitted,
Margaret A. Katze
Federal Public Defender
DATED: January 19, 2021

By:

s/ Margaret A. Katze
Margaret A. Katze
Federal Public Defender
Counsel of Record
111 Lomas Blvd., Suite 501
Albuquerque, New Mexico 87102
Telephone: (505) 346-2489
Facsimile: (505) 346-2494
Attorney for the Petitioner

2

